OIG Investigative Reports Press Release, Philadelphia, PA, 01/22/2013 - Charges Filed Against Charter School Founder and Co-Defendants
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRCIT OF PENNSYLVANIA
PRESS RELEASE
Additional Charges Filed Against Charter School Founder and Co-Defendants
FOR IMMEDIATE RELEASE
January 22, 2013
PHILADELPHIA – A superseding indictment was filed today against Dorothy June Brown, 75, of Haverford, Pennsylvania, charging her and with two additional counts of wire fraud and one additional count of obstruction of justice in connection with schemes to defraud three charter schools of more than $6.7 million. Charged with Brown in the 67-count superseding indictment are Joan Woods Chalker, 74, of Springfield, Pennsylvania, Michael A. Slade, Jr., 31, of Philadelphia, Pennsylvania, Courteney L. Knight, 65, of King of Prussia, Pennsylvania, and Anthony Smoot, 50, of New Castle, Delaware.
All five defendants were previously named in a 62-count indictment, filed on July 24, 2012. The original indictment alleges that Brown used her private management companies, Cynwyd Group and AcademicQuest, to defraud the Agora Cyber Charter School ("Agora") and the Planet Abacus Charter School ("Planet Abacus") soon after she founded the schools in 2005 and 2007, respectively. Brown is also charged with defrauding the Laboratory Charter School of Communication and Languages ("Laboratory"), a school she founded in 1997, by using Laboratory funds to pay the wages of an employee at one of Brown's private management companies.
The new indictment includes an additional wire fraud scheme alleging that Brown and Chalker caused Laboratory to pay them approximately $214,095 in compensation that they were not entitled to receive. It further alleges that Brown and Chalker obstructed justice by fabricating Laboratory records and policies to make it falsely appear as if they were owed the payments from Laboratory due to unused vacation and sick time. The superseding indictment also includes new charges that Slade and Knight obstructed justice by fabricating board resolutions of Laboratory and another school, the Ad Prima Charter School.
Each of the wire fraud and obstruction of justice counts carry a maximum possible sentence of 20 years in prison. If convicted, the defendants face substantial terms of imprisonment and significant fines and other financial penalties.
This case was investigated by the United States Department of Education - Office of Inspector General and the Federal Bureau of Investigation. It is being prosecuted by Assistant United States Attorney Anthony Kyriakakis.
UNITED STATES ATTORNEY'S OFFICE, EASTERN DISTRICT of PENNSYLVANIA
Suite 1250, 615 Chestnut Street, Philadelphia, PA 19106
PATTY HARTMAN, Media Contact, 215-861-8525
Top
Printable view
Last Modified: 01/23/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov